DOE F 1325.8
(08-93)
                                                                                                   *
United States Government                                                          Department of Energy


Memorandum                                                                    OFFICE OF INSPECTOR GENERAL

          DATE:   November 9, 2005
    REPLY TO
     ATTN OF:     IG-34 (A05TG036)                               Audit Report No.: OAS-L-06-01
    SUBJECT:      Report on Audit of "The Department of Energy's Radio Communications Systems"

          TO:     Chief Information Officer, IM-1

                  INTRODUCTION AND OBJECTIVE

                  The Department of Energy's (Department) complex-wide radio systems infrastructure
                  supports and facilitates activities such as site emergency response, maintenance,
                  physical security and protection. In response to the requirements established by the
                  TelecommunicationsAuthorization Act of 1992 and implementing guidance published
                  by the Secretary of Commerce, the Department was required to adopt spectrum
                  efficient radio technologies. In particular, sites were required to convert certain
                  existing radio systems to narrowband frequencies by January 1, 2005, with the
                  remainder to be converted by 2008.

                  Our audit of the Management of Oak Ridge Radio TransitionProjects (DOE/IG-0653,
                  June 2004) identified issues with the conversion and acquisition of radio systems at
                  the Oak Ridge Reservation. Since all Department sites were required to convert their
                  systems, we initiated the audit to determine whether other recently completed radio
                  transition projects were cost-effective and maximized spectrum efficiency.

                  CONCLUSION AND OBSERVATIONS

                  We determined that several Department sites did not complete adequate cost/benefit
                  analyses and/or project planning and could not document that their frequency
                  conversion approaches were cost-effective and maximized spectrum efficiency. We
                  also observed that the Department had not provided sufficient guidance or oversight to
                  the sites.

                                          System Planning and Implementation

                  Several of the Department sites reviewed (Savannah R1.ver Site, Lawrence Livermore
                  and Los Alamos National Laboratories) had not performed the required cost analyses
                  during radio system planning and implementation. Narional Telecommunications and
                  Information Administration (NTIA) regulations require agencies to utilize commercial
                  vendors for acquiring radio communications services unless they are unavailable,
                  inadequate, or significantly more costly. To prove cost: savings from Government-
                  owned radio systems, agencies are required to perform an in-depth analysis which
11/10/05   08:21 FAX 301 903 4656              CAPITAL REGION                                            9002




             must incorporate all elements of Office of Management and Budget Circular A-76,
             "Performanceof CommercialActivities." While all three of the locations noted above
             had implemented Government-owned radio systems, none had determined whether the
             use of a commercial system was a more cost or spectrum efficient approach. Officials
             from several of the sites reviewed indicated that cost was not a factor, and cost
             analyses were not performed because the radio transition was mandated.

             Conversely, planning and procurement documentation related to the radio system
             implementation at Hanford disclosed that a quantitative alternatives analysis had been
             performed prior to arriving at the decision to transition all non-essential radios to
             commercial service. This approach provided a radio system for use by the site for a
             monthly, per radio fee (similar to a cellular phone service) and all safety and
             emergency services were retained on the site's Government-owned system. This
             alternative utilizes commercial services to the maximum extent possible and was
             performed according to NTIA requirements.

                                             Guidance and Oversight

             The Department had not provided adequate guidance to the sites on radio system
             planning, procurement, and implementation to ensure that sites were aware of project
             planning requirements and that the Federal spectrum was utilized in the most efficient
             manner. The Office of the Chief Information Officer had Department-wide
             responsibility for spectrum management and was charged with providing advice,
             assistance, and guidance to the Department Lead Program Secretarial Officers,
             Headquarters Program Offices, and field sites on the use of Federal radio spectrum
             systems and services. However, we found that the Office of the Chief Information
             Officer efforts in this area were concentrated on administrative functions such as radio
             system certification and obtaining frequency licenses for site radio systems.
             Furthermore, officials from that office told us that they did not review and approve site
             or program level plans for sufficiency due to staffing limitations.


             SUGGESTED ACTION

             While each of the sites we visited or obtained data from had completed equipment
             procurement or system installation, additional action is necessary to satisfy the
             Department's responsibilities with regard to spectrum uise. The Presidential
             Memorandum on Improving Spectrum Managementfo, the 21st Century requires the
             Department to submit a spectrum strategic plan. To facilitate completion of this plan
             and other reports required by the Department of Commerce, we suggest that:

                 * The Office of the Chief Information Officer, in coordination with the National
                   Nuclear Security Administration and other Lead Program Offices, provide
                   direction to sites regarding Federal requirements to help ensure that required
                   plans are completed and that any future system implementations that may be
                   necessary are spectrum efficient and cost-effective.



                                                 2
11/10/05   08:21 FAX 301 903 4656             CAPITAL REGION                                            1003




             Since no formal recommendations are being made in this letter report, a formal
             response is not required. We appreciate the cooperation of your staff during this audit.




                                                    Rickey R. Hass
                                                    Assistant Inspector General
                                                      for Financial, Technology, and Corporate Audits
                                                    Office of Audit Services
                                                    Office of Inspector General

              Attachment

             cc:    Team Leader, Audit Liaison, CF-1.2
                    Director, Policy and Internal Controls Management, NA-66
                    Audit Liaison, EM-33
                    Audit Liaison, FE-3
                    Audit Liaison, IM-10
                    Audit Liaison, NE-10
                    Audit Liaison, SC-32.1




                                                3
11/10/05   08:21 FAX 301 903 4656             CAPITAL REGION                                         1004




                                                                                        Attachment


             SCOPE AND METHODOLOGY

              Fieldwork on the audit of the Department of Energy's (Department) Radio
             .Communications Systems was performed between November 2004 and
              November 2005 and involved Department Headquarters and selected field locations.
              To accomplish the audit objective, we:

                   * Held discussions with officials within the Office of Chief Information
                     Officer (OCIO) in Washington, DC and Germantown, MD to determine the
                     role of the OCIO in licensing the Department's radio communications
                     systems and the level of guidance provided to field sites implementing new
                     radio systems;

                   * Held discussions with officials from the Richland Operations Office, Office
                     of River Protection, Fluor Hanford, Inc., CH2M Hill Hanford Group, Inc.,
                     Bechtel National, Inc., Pacific Northwest Site Office, and the Pacific
                     Northwest National Laboratory to gain an understanding of how radio system
                     projects were managed and capabilities tested at the sites. Additional
                     information was gathered from officials at the Argonne National Laboratory,
                     Sandia National Laboratory, Lawrence Liveimore National Laboratory, Los
                     Alamos National Laboratory, Savannah River Site, Bonneville Power
                     Administration, and Bechtel Nevada regarding radio system project planning
                     and cost; and,

                   *   Obtained and reviewed project planning and system testing documentation
                       regarding radio systems installed on the Hanford Site and Pacific Northwest
                       National Laboratory.

             The audit was performed in accordance with generally accepted Government auditing
             standards for performance audits and included tests of internal controls and
             compliance with laws and regulations to the extent necessary to satisfy the audit
             objective. Accordingly, we evaluated the Department's implementation of the
             Government Performanceand Results Act and determined that performance measures
             had not been established for the area of radio communications systems. As a result,
             we could not assess how they might have been used to measure performance. Because
             our review was limited, it would not necessarily have disclosed all internal control
             deficiencies that may have existed at the time of our audit. We did not rely on
             computer-processed data to accomplish our audit objective. We discussed the results
             of our audit with representatives from the Office of Chief Information Officer in
             November 2005.




                                                 4
